WAIVER

SUPREME COURT OF THE UNITED STATES

No. 121-5130

Michael Storey | ‘city of Alton, Illinois
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropyiate box:
® lam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Lam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C, 20543).

Signature: |

 

Date: ig/5/21

(ype or print) Name Charles A. Pierce \

 

© Mr. O Ms. O mts. —O Miss
Pirm [Pierce Law Firm, P.C. |
Address [3 Executive Woods Court, Suite 200 |
City & State [Belleville, IL | zip (62226 |
Phone \e18-277-5599 | Email icpierce@piercelawpe.com |

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Michael Storey
ce: {P.O. Box 112
Cottage Hills, IL 62018
